                    NATIONAL ENDOWMENT FOR THE ARTS
                    OFFICE OF INSPECTOR GENERAL




                     EVALUATION REPORT

            FISCAL YEAR 2008 EVALUATION OF
              NEA’S COMPLIANCE WITH THE
            FEDERAL INFORMATION SECURITY
                MANAGEMENT ACT OF 2002


                               REPORT NO. R-09-02
                                OCTOBER 9, 2008




                           REPORT RELEASE RESTRICTION
This report may not be released to anyone outside of the National Endowment for the Arts (NEA)
without the approval of the NEA Office of Inspector General.

Information contained in this report may be confidential. The restrictions of 18 USC 1905 should be
considered before this information is released to the public.

Furthermore, information contained in this report should not be used for purposes other than those
intended without prior consultation with the NEA Office of Inspector General regarding its
applicability.
                               INTRODUCTION
The Federal Information Security Management Act of 2002 requires an annual evaluation
by the Inspector General on its agency‟s information security programs and practices.
This report presents the results of our evaluation of NEA‟s information security program
and practices for protecting its information technology (IT) infrastructure.


                                BACKGROUND
The Federal Information Security Management Act (FISMA) of 2002 was signed into
law on November 27, 2002. It replaced the Government Information Security Reform
Act (GISRA), which expired in November 2002. The Act requires each federal agency to
develop, document, and implement an agency-wide information security program to
provide information security over the operations and assets of the agency. This includes:

       Periodic risk assessments;
       Policies and procedures that are based on risk assessments;
       Subordinate plans for providing adequate information security for networks,
       facilities, information systems, or groups of information systems, as appropriate;
       Security awareness training to inform employees (including contractors) of the
       security risks associated with their activities and their responsibilities to comply
       with those agency policies and procedures designed to reduce those risks;
       Periodic testing and evaluation of the effectiveness of information security
       policies;
       A process for planning, implementing, evaluating, and documenting remedial
       action to address any deficiencies in the information security policies, procedures,
       and practices, of the agency;
       Procedures for detecting, reporting, and responding to security incidents; and
       Plans and procedures to ensure continuity of operations of the agency‟s
       information systems.


Office of Management and Budget (OMB) Memorandum M-08-21, dated July 14, 2008,
entitled “FY 2008 Reporting Instructions for the Federal Information Security
Management Act and Agency Privacy Management,” updates instructions to Senior
Agency Officials for Privacy, Chief Information Officers and Inspectors General for
reporting their 2008 information to OMB.

The National Institute of Standards and Technology (NIST), which has the responsibility
for developing technical standards and related guidance, has issued numerous
publications including An Introduction to Computer Security: The NIST Handbook. This
publication explains important concepts, cost considerations, and interrelationships of
security controls as well as the benefits of such controls. NIST also has published a
Guide for Developing Security Plans for Information Technology Systems. In addition,

                                            2
guidance is found in the Government Accountability Office publication, Federal
Information System Controls Audit Manual (FISCAM). NIST has also issued Special
Publication 800-37, Guide for the Security Certification and Accreditation of Federal
Information Systems; Special Publication 800-53, Recommended Security Controls for
Federal Information Systems; and FIPS PUB 199, Standards for Security Categorization
of Federal Information and Information Systems.

NEA‟s Office of Information and Technology Management (ITM) maintains and
operates two of the Agency‟s three core systems on a local area network (LAN). These
are the Grants Management System (GMS), which contains information on grant
applications and the Automated Panel Bank System (APBS), which contains information
on panelists who review grant applications. NEA has contracted with the Department of
Transportation Enterprise Service Center to host NEA‟s Financial Management System
(FMS) through its Delphi Financial Management System. In addition, NEA operates
support systems including electronic mail, and internet and intranet services.

The Chief Information Officer (CIO) is responsible for developing policies and
procedures to ensure that security is provided over NEA‟s networks.


                         OBJECTIVE AND SCOPE
The objective of the evaluation was to determine the adequacy of NEA‟s information
technology (IT) security program and practices. In the past, this included a review of
NEA‟s IT security policies and procedures, interviews with responsible agency officials
managing the IT systems, and tests on the effectiveness of security controls. This year the
FISMA guidance included additional questions on privacy.


                            PRIOR EVALUATION
The NEA Office of Inspector General issued a report entitled “Fiscal Year 2007
Evaluation of NEA‟s Compliance with the Federal Information Security Act of 2002”
(Report No. R-08-01) dated October 18, 2007. The report had two recommendations,
both of which were resolved; however, only Recommendation 2 was implemented.
During our review, we found that ITM is not reporting weaknesses identified in its
self-assessment (POA&Ms) in its quarterly FISMA reports as required by OMB.



                          EVALUATION RESULTS
Our current evaluation determined that there are several issues that need to be addressed
by NEA‟s Office of Information and Technology Management. These issues are related
to the risk assessment, updating the Continuity of Operations (COOP) and Security Plan,
implementing procedures related to change management, IT Security Awareness training,
                                            3
 IT policies and procedures, and reporting of POA&Ms on the quarterly FISMA reports.
 Details are presented in the following narrative.

 Risk Assessment

 SeNet International Corporation (SeNet) performed the latest risk assessment, the results
 of which were issued on August 28, 2008. The review concluded the following:

        The implementation and management of the security architecture supporting the
        National Endowment for the Arts enterprise network appears to require
        strengthening in order to more effectively restrict unauthorized internal access to
        information resources.

 The review cited the following weaknesses:

         Web applications were discovered that are vulnerable to SQL Injection;
         Web applications were discovered that are vulnerable to Cross-Site Scripting


The report also stated that the NEA Continuity of Operations Plan (COOP) was weak.
The COOP was reviewed against the guidance provided in the Federal Emergency
Management Agency (FEMA) Federal Preparedness Circular (FPC-65), the NIST 800-
34, “Contingency Planning Guide for Information Technology Systems” and the NIST
800-53, “Recommended Security Controls for Federal Information Systems.” The report
noted the following deficiencies:

        The plan does not contain contact information for key personnel;
        The plan does not identify any Vital Records and Databases;
        The current section on Mission Essential Functions does not clearly identify the
        critical NEA functions which must be continued under all circumstances as
        required by the PFC-65;
        The plan mentions “Procuring needed services and/or equipment” but does not
        provide a list of vendors and their contact information;
        The plan does not list contact information for customers or other agencies (NEA
        Panel and National Council of Arts) that NEA may be required to contact and
        inform regarding the emergency and COOP activation;
        The plan does not define in detail where the work will be performed in the 30
        days during the COOP period using an alternate site;
        The COOP does not clarify steps that will be taken to ensure strategy for critical
        personnel to continue operating at an alternate facility or remotely; and
        The plan does not reference the existence of any contingency/disaster
        recovery/business continuity plans which may exist.




                                              4
ITM included revision of the COOP in the 2007-2008 POA&M Summary. We
recommend that ITM revise the COOP and implement corrective actions to address the
deficiencies noted in the SeNet report.

E-Authentication Risk Assessment
OMB Memorandum 04-04 issued December 16, 2003, directed “agencies to conduct „e-
authentication risk assessments‟ on electronic transactions to ensure that there is a
consistent approach across government.” The guidance applies to “remote authentication
of human users of Federal agency IT systems for the purposes of conducting government
business electronically (or e-government).”

The 2008 FISMA guidance issued by OMB asks Inspectors General to determine whether
the agency has identified all e-authentication applications and validated that the
applications have operationally achieved the required assurance level in accordance with
the NIST Special Publication 800-63, “Electronic Authentication Guidelines.” NEA ITM
determined that an e-authentication risk assessment of NEA systems was not required
since its systems are not internet-based, are not available to users outside of the Agency‟s
firewall, and do not require authentication from users on the outside. Based on our
review, we agree that NEA ITM is not required to perform the e-authentication risk
assessment.

NIST Self-Assessment
ITM conducted its 2007 self-assessment using the controls found in the National Institute
of Standards and Technology (NIST) Special Publication 800-53, “Recommended
Security Controls for Federal Information Systems.” The primary issues identified in this
assessment included the lack or revision of written policies regarding the Security Plan,
Continuity of Operation Plan (COOP), media protection, and system and service
acquisition. In our prior review, we recommended that weaknesses identified in the self-
assessment be included in NEA‟s Plans of Action and Milestones (POA&Ms), which is
updated quarterly and submitted to the Office of Management and Budget. Our review
found that this had not been implemented. Therefore, we will repeat the previous
recommendation.

Security Plan

NEA issued its security plan for each of its in-house GMS and APBS systems that
addressed FISMA and OMB requirements in September 2004. The development of
security plans are an important activity in an Agency‟s information security system that
directly supports the security accreditation process required under FISMA and OMB
Circular A-130. Security plans should ensure that adequate security is provided for all
Agency information collected, processed, stored, or disseminated in NEA‟s general
support systems and major applications. We noted changes to the NEA Network.
However, the last update for the NEA Security Plan was June 2007. ITM has advised us
that the plan is currently being updated.
                                             5
Privacy Reporting and Privacy Impact Assessment

The 2008 FISMA guidance included additional questions on security and privacy
policies, which requires agencies to submit information on the types of privacy reviews
conducted, policies, and privacy issue allegations. This guidance specifically relates to
OMB Memorandum M-08-09, dated January 18, 2008, “New FISMA Privacy Reporting
Requirements for FY 2008.” OMB also directed agencies to submit their most current
documentation related to OMB Memorandum M-07-16, “Safeguarding Against and
Responding to the Breach of Personally Identifiable Information,” (PII). OMB
Memorandum M-07-16 requires agencies to review their use of SSNs, in agency systems
and programs, in order to identify instances in which collection or use is superfluous.

To comply with the requirements above, NEA‟s ITM has:

       Implemented PII policies regarding breach notification and rules of behavior;
       Completed technical security assessments to evaluate the level of security
       protecting NEA IT assets;
       Reviewed PII holdings and updated the system of records notice (SCORNs) to
       include OMB recommended “routine uses” of PII language; and
       Modified security orientation and privacy training for all NEA staff to include
       responsibility to protect Agency information and technology assets.

ITM‟s review of PII holdings determined that NEA collects only PII that is relevant and
necessary for administrative purposes and determined that there are adequate
administrative, technical and physical safeguards in place for the PII collected. NEA
does not use SSNs, truncated SSNs, or any part of SSNs as tracking numbers for its
applications, grants, cooperative agreements or contracts. NEA does not share PII with
outside agencies other than for processing payments. ITM indicated there have been no
reported breaches or security incidents involving PII collected or maintained by the
Agency.

Section 208 of the E-Government Act (2002) requires that “agencies ensure sufficient
protections for the privacy of personal information as agencies implement citizen-
centered electronic Government.” It further requires agencies to conduct a privacy
impact assessment (PIA) and make that assessment available to the public on the agency
website.

NEA has reviewed the PIA requirements and identified four external systems where PIAs
are required (Personal Identity Verification Card system, Electronic Official Personnel
File System, NFC Payroll System, and Delphi Financial Management System). NEA‟s
internal systems do not require PIAs since they were in place prior to the law.




                                            6
Security Incidents
NEA has formalized a “Computer Security Incident Policy” (revised November 2007),
which (1) identifies the type of activity characterized as a computer security incident, and
(2) defines the steps to be taken to report a computer security incident. The policy
applies to all permanent and temporary employees, including contractors who utilize
NEA‟s computer equipment and systems. Appendix III to OMB Circular A-130 states:

       When faced with a security incident, an agency should be able to respond in
       a manner that both protects its own information and helps to protect the
       information of others who might be affected by the incident. To address this
       concern, agencies should establish formal incident response mechanisms.
       Awareness and training for individuals with access to the system should
       include how to use the system’s incident response capability.


Any NEA computer security incidents are handled by ITM‟s Computer Security Incident
Team (CSIT), which consists of four ITM employees. One employee, who is designated
as the CSIT coordinator, serves as the team‟s central resource for monitoring computer
security incidents.

NEA‟s policy states, “The CSIT will be comprised of the following staff from the Office
of Information and Technology Management:

       two representatives from the Customer Services Division (the Director and one
       additional staff member)
       two representatives from the Plans, Policy and Programs Division (the Director
       and one additional staff member)”

Currently, NEA ITM does not have a Customer Services Division or a Plans, Policy and
Programs Division; therefore, we recommend that the policy be revised to reflect the
appropriate CSIT staff.

IT Security and Privacy Awareness Training

NIST Special Publication 800-50, Building an Information Technology Security
Awareness and Training Program and NIST Special Publication 800-16, Information
Technology Security Training Requirements: A Role- and Performance-Based Model,
provide the standards for security awareness and training. ITM implemented agency-
wide training in 2005. ITM combined IT Security and Privacy Awareness Training in the
FY 2008 Annual Refresher Training.

The August 2008 SeNet report noted that the Security Awareness and Training Policy
was a sound basic document. However, to make the policy “more explicit, robust, and
compliant with Federal guidance,” SeNet made several recommendations and suggestions
to improve the policy. We recommend that ITM revise the Security Awareness and
Training Policy to include the recommended changes and implement the suggested
                                           7
changes in developing all of its policies. In addition, we recommend that ITM implement
the following:

            Add an “Authority” section that includes Federal agency requirements which
            mandate the establishment of the policy;
            A numbering system to track policies and indicate if it is a revision;
            Develop a formal policy manual;
            Notify employees of new policies and place all official policies on the IT
            Policy webpage on the NEA Intranet; and
            Include reporting of security incidents procedures in the IT Security
            Awareness Training.

Inventory Controls
NEA has an inventory of its hardware and has updated its listing as of July 17, 2008. The
perpetual inventory listing is maintained and updated as equipment is added or deleted.
The inventory lists each item by office, barcode number, serial number, manufacturer,
model number and description, as well as the user. It also indicates the date the inventory
was taken and the initials of the person who took the inventory.

Change Management

ITM issued a “Change Management Policy/Procedure” in 2004. This policy “describes
the responsibilities, policies, and procedures to be followed by ITM when making
changes or recording events to the National Endowment for the Arts IT infrastructure.” It
defines “change” and “event” as follows:

   Change: to transform, alter, or modify the operating environment or standard operating
   procedures; any modification that could have potential and/or significant impact on the
   stability and reliability of the infrastructure and impacts conducting normal business
   operation by our users and ITM; any interruption in building environments (i.e., electrical
   outages) that may cause disruption to the IT infrastructure.

   Event: any activity outside of the normal operating procedures that could have a potential
   and/or significant impact on the stability and reliability of the infrastructure, i.e. a request to
   keep a system up during a normal shutdown period.

The change management process includes the submission of a change request with
management approval. During our prior evaluation, it was noted that when we requested
a log and/or copies of such requests, none had been submitted. As a result, a
recommendation was made that ITM implement procedures to ensure compliance with
the NEA Change Management Policy. This year, we again requested copies of
completed change management request forms and reviewed the ITM Change Request
Folder, located on the server. Our evaluation found that there were no submissions
during FY 2008. We recommend that ITM implement procedures to ensure compliance
with the NEA Change Management Policy.


                                                   8
Financial Management System
NEA has an agreement with the U.S. Department of Transportation (DOT) to utilize the
Enterprise Service Center‟s (ESC) Oracle Federal Financials System, Delphi, as their
financial management system. OMB requires that such service organizations provide
client agencies with an independent report describing system controls. To comply with
this requirement, DOT OIG hired an independent contractor, Clifton Gunderson, LLP, to
conduct a review on the computer controls over the information technology and data
processing environment, as well as the input processing, and output controls built into the
Delphi system.

The independent contractor rendered an opinion on the effectiveness of those controls for
the nine-month period from October 1, 2007 through June 30, 2008. The audit concluded
that the “controls of ESC Services presents fairly, in all material respects, the relevant
aspects of ESC‟s controls that had been placed in operation as of June 30, 2008. In
addition, controls “are suitably designed to provide reasonable assurance that the
specified control objectives would be achieved if the described controls were complied
with satisfactorily and the user organizations applied the controls contemplated in the
design of ESC controls.” The exceptions are “logical access and segregation of duties
concerning the CASTLE 1 system operations.” CASTLE is used to support DOT
operations only.

Payroll System

NEA uses the Department of Agriculture (USDA) National Finance Center as its payroll
provider. The latest Statement on Auditing Standards Number 70 (SAS 70) Review of
the Department of Agriculture Office of the Chief Financial Officer/National Finance
Center (OCFO/NFC) issued by the USDA OIG was for fiscal year 2007. This review
concluded that the OCFO/NFC‟s “description of controls presented fairly, in all material
respects, the relevant aspects of OCFO/NFC.” Also, in their opinion, “the controls
included and/or referenced in the description, as updated, were suitably designed to
provide reasonable assurance that associated control objectives would be achieved if the
described policies and procedures were complied with satisfactorily and customer
agencies applied the controls specified in the OCFO/NFC description of controls.”

The 2007 USDA report described “weaknesses in OCFO/NFC internal control policies
and procedures that may be relevant to the internal control structure of OCFO/NFC
customer agencies.” The report further stated that “as of August 30, 2007, OCFO/NFC
had corrected or was in the process of correcting the exceptions identified.”

The 2008 USDA SAS 70 Report on the National Finance Center was not available at the
time of our evaluation in September 2008. We recommend that NEA ITM provide us
with a copy of the report as soon as it becomes available.


1
    Consolidated Automated System for Time and Labor Entry (CASTLE).
                                                  9
                           EXIT CONFERENCE
An exit conference was held with NEA‟s CIO on October 7, 2008. The CIO generally
concurred with our recommendations and has agreed to initiate corrective actions.



                          RECOMMENDATIONS
We recommend that the NEA Office of Information and Technology Management:

   1. Respond and implement procedures to address weaknesses found during the risk
      assessment.

   2. Revise the COOP to address the deficiencies noted in the SeNet report.

   3. Include corrective actions for weaknesses identified in NEA‟s Plans of Action and
      Milestones (POA&Ms), which are more than 90 days beyond the planned
      remediation date, in its quarterly FISMA report as required by the Office of
      Management and Budget.

   4. Revise the Computer Incident Policy to reflect the appropriate CSIT staff.

   5. Implement standard procedures for developing policies, which will ensure that
      only approved policies are issued. It should also implement procedures to ensure
      that policies are made available to employees.

   6. Provide the Office of Inspector General with a copy of the 2008 Statement on
      Auditing Standards Number 70 (SAS 70) Review of the Department Agriculture
      National Finance Center.




                                          10
